        OFFICE OF

   INSPECTOR GENERAL



Semiannual Report to Congress
 April 1, 2002 – September 30, 2002


    Federal Election Commission
    999 E Street, N.W., Suite 940
      Washington, DC 20463



        November 2002

                                     TABLE OF CONTENTS


          SUBJECT                                                                                           PAGE


EXECUTIVE SUMMARY...................................................................................... 1


FEDERAL ELECTION COMMISSION............................................................... 7


AUDIT..…………………………………………………………………………………………….. 9


AUDIT FOLLOW-UP…………………………………………………………………………. 12


INSPECTION REPORT......................................................................................... 14


SPECIAL PROJECT............................................................................................... 16


INVESTIGATIONS................................................................................................ 18


ADDITIONAL OFFICE OF INSPECTOR GENERAL

  ACTIVITY........................................................................................................ 19


ECIE AND PCIE ACTIVITY................................................................................. 22


REPORTING REQUIREMENTS......................................................................... 24


TABLE I - QUESTIONED COSTS....................................................................... 25


TABLE II - FUNDS PUT TO BETTER USE....................................................... 26


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.............................................. 27


OIG STRATEGIC PLAN....................................................................................... 28


CONTACTING THE OFFICE OF INSPECTOR

   GENERAL....................................................................................................... 29





April 1, 2002 – September 30, 2002
                         EXECUTIVE SUMMARY




       I hereby submit this semiannual report to Congress covering the period

April 1, 2002 through September 30, 2002. This report reflects our efforts to

remain in accordance with the requirements of the Inspector General Act of

1978, as amended, and summarizes the major activities and accomplishments of

the Federal Election Commission (FEC), Office of Inspector General (OIG). The

Executiv e Summary recaps the accomplishments and general activities of the

Office of Inspector General during the six month reporting period.



       The special project report entitled Limited Scope Building Security

Review (OIG-02-02 – June, 2002), was completed and released by the

Office of Inspector General during this reporting period. The review was

conducted to obtain the following objectives: 1) to assess the effectiveness of the

FEC closed circuit television (CCTV) security system; and 2) to provide

suggestions to improve overall building security.



       The review was initiated for two reasons. Due to domestic and

international acts of terrorism that have occurred in recent years, the Federal

government has placed a greater importance on securing Federal facilities.

Secondly, the theft of an FEC laptop computer gave rise to concern over the

adequacy of the FEC’s building security. Furthermore, according to GSA, the FEC

is responsible for identifying problems with the internal building security cameras


April 1, 2002 – September 30, 2002                                            Page 1
and CCTV system equipment, and alerting GSA to any problems that may need

to be addressed.



       In order to achieve the stated objectives, an assortment of documents

were reviewed. In addition, a variety of meetings were held to discuss several

building security issues. The OIG’s evaluation of the CCTV system also included

a review of both the security cameras and the policies and procedures for the

system. Although the report did not include any formal recommendations,

several weaknesses were found that the IG staff believes should be addressed by

management. However, the OIG concluded that the FEC’s CCTV security system

is generally effective in providing surveillance of the FEC building. To obtain

more information relating to the review, see page 16, the section entitled Special

Project.



       The Office of Inspector General initiated an audit entitled Audit of the

FEC’s Public Disclosure Process – (OIG-02-03). The OIG received a

request from Congressman Stephen Horn, Chairman, Oversight Subcommittee on

Government Efficiency, Financial Management and Intergovernmental Relations,

requesting a complete review of how the Commission is carrying out its disclosure

responsibilities and how the Commission can improve its use of technology and its

controls to monitor and remedy reporting discrepancies.



       The objectives of the audit are to: 1) determine the extent, if any, of

disclosure differences between candidate contributions reported by political


April 1, 2002 – September 30, 2002                                               Page 2
committees and related committee contributions reportedly received by

candidates; and 2) determine whether an adequate process is in place to remedy

reporting discrepancies.



       During the preliminary stages of the audit, several meetings have been

conducted with management to gain an understanding of the details involved in

the FEC’s disclosure process. Although there is still a considerable amount of

work to be done before the audit is complete, the OIG continues to make progress

in executing the audit. To learn more about the audit, see the section entitled

Audit, starting on page 9.



       The OIG conducted follow-up work on a previously performed audit. The

audit report entitled, Agency Controls for Governing the Process for

Procurement of Vendor Training Services (OIG-00-01), released

September 2000, was conducted to assess economy, efficiency, and effectiveness

of management controls governing the process for procurement of training

services obtained through outside vendors. Our audit covered several issues

which related to staff development at the Commission using outside vendors.



       Although we noted no specific instances of fraud or abuse, based on the

audit work, we concluded that agency controls governing the process for

procurement of vendor training services were not effective or efficient. The

original audit report contained seven recommendations. Prior to this reporting

period, three of the recommendations were closed. However, as of this reporting


April 1, 2002 – September 30, 2002                                             Page 3
period, four recommendations are still pending. For detailed information

regarding the follow-up work performed see page 12, the Audit Follow-up

section of this report.



       Because the entire IG staff is committed to assisting with the disclosure

audit mentioned above, one project has been put on hold. During the previous

semiannual reporting period, the OIG initiated an inspection of the FEC’s

subscription / publication services. The inspection entitled, Inspection of the

Commission’s Subscription / Publication Services – OIG -02-01), is

being conducted to: 1) assess the adequacy of the level of funds expended for

various publications; and 2) determine whether the current publication budget

and expenditures accurately reflect the usage of these publications and whether

or not these publications meet the needs of the Commission.



       Several meetings have been conducted with agency officials. One in

particular was with the FEC Administrative Officer. This meeting was conducted

to obtain agency publication acquisition policies and other information related to

the subscription and publication services of the Commission. Although this

project has been placed on hold, page 14 contains information pertaining to the

work completed thus far on the inspection.



       The OIG investigates complaints and information received from

Commission employees, management officials or others concerning possible

violations of FEC programs and operations. Three requests for investigations


April 1, 2002 – September 30, 2002                                            Page 4
were received by the OIG during this six month reporting period. For further

details, refer to the Investigations section located on page 18.



       Listed below is a general overview of additional work performed by the

Office of Inspector General over the past six months. Starting on page 19, in the

section entitled Additional Office of Inspector General Activity, items

are described in greater detail.



       •	 Every year the President’s Council on Integrity and Efficiency and the

          Executive Council on Integrity and Efficiency assembles a progress

          report which is a compilation of the major accomplishments of the IG

          community. During this reporting period, the OIG reviewed and

          provided comments to the draft version of the ECIE / PCIE FY 2001

          Progress Report to the President. When the report is finalized and

          released, all ECIE / PCIE members, as well as the President and House

          and Senate Committees will receive copies.



       •	 The OIG also provided comments on the GAO draft report entitled

          Inspectors General: Issues Related to the Consolidation of IG Offices.

          GAO developed a survey which included 28 key elements related to IG

          independence. A draft version of the report was issued to all IG’s with

          a request that a consolidated response be coordinated through the

          PCIE/ECIE Vice Chairs.




April 1, 2002 – September 30, 2002                                          Page 5
       •	 The IG, as a member of the ECIE, maintains active membership with

          the council and its associated activities. During this reporting period,

          the Inspector General served on the ECIE 2002 Awards Review Panel.



       •	 The Special Assistant to the IG continues to monitor legislative

          proposals which could directly or indirectly impact the FEC / OIG.

          During this reporting period, the Special Assistant attended the

          Legislative Hearing on HR 4685, the Accountability of Tax Dollars Act

          of 2002.




April 1, 2002 – September 30, 2002                                            Page 6
                THE FEDERAL ELECTION COMMISSION


       The Federal Election Commission (FEC) is an independent, regulatory

agency responsible for administering and implementing the Federal Election

Campaign Act (FECA). The FEC is composed of six Commissioners who are

appointed for six year terms by the President of the United States, with the

advice and consent of the Senate. The FECA likewise established the positions of

Staff Director and General Counsel, who are appointed by the Commissioners.



       The Office of Inspector General is dedicated to assisting the Federal

Election Commission as it continues to improve its efficiency and effectiveness.



                 OFFICE OF INSPECTOR GENERAL

       The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments to

the Inspector General Act of 1978 (P.L. 100-504).



       The responsibilities of the Inspector General as stated in P.L. 100-504 are

as follows:

              •	 conduct and supervise audits and investigations relating to the

                 Federal Election Commission’s programs and operations;




April 1, 2002 – September 30, 2002                                             Page 7
              •	 provide leadership, coordination, and to recommend policies for

                 activities designed to promote economy, efficiency and

                 effectiveness in the administration of Commission programs and

                 operations. To prevent and detect fraud, waste and abuse in

                 these programs and operations, and;



              •	 keep the Commissioners and Congress fully and currently

                 informed about problems and deficiencies and the need for and

                 progress of corrective actions.



       The Inspector General, Lynne A. McFarland, reports directly to the six

Commissioners. The OIG staff consists of three additional staff members – two

Auditors and one Special Assistant, for a total of four. The OIG remains focused

upon providing the highest level of professionalism and quality while conducting

audits, inspections, investigations, and special reviews.



       For the past three fiscal years, the OIG has requested contract money to

enable the office to expand its audit capability. As of this date, we have not

received any additional funds to enable us to contract out for audit assistance. It

is the OIG’s plan to again request funds for FY’04.




April 1, 2002 – September 30, 2002                                               Page 8
                                         AUDIT

TITLE:                      Audit of the FEC’s Public Disclosure Process


ASSIGNMENT #:               OIG – 02-03


RELEASE DATE:               In Progress


PURPOSE:                    The OIG received a request from Congressman 


Stephen Horn, Chairman, Oversight Subcommittee on Government Efficiency, 


Financial Management and Intergovernmental Relations, requesting a complete 


review of how the Commission is carrying out its disclosure responsibilities and 


how the Commission can improve its use of technology and its controls to monitor 


and remedy reporting discrepancies. The objectives of the audit are to: 1)


determine the extent, if any, of disclosure differences between candidate 


contributions reported by political committees and related committee 


contributions reportedly received by candidates; and 2) determine whether an 


adequate process is in place to remedy reporting discrepancies. 




       The Project on Government Oversight (POGO) Committee produced two

reports, the first entitled Re-establishing Institutional Integrity at the FEC: Ten

Common Sense Campaign Finance Disclosure Reforms, March 5, 1998 and the

second entitled At the Federal Election Commission Things just Don’t Add Up,

March 28, 2001. The POGO reports documented perceived problems with the

Federal Election Commission’s management of information. Congressman Horn is

particularly interested in a review of issues discussed in the two reports.


April 1, 2002 – September 30, 2002                                            Page 9
       Because the OIG has never conducted an audit of the FEC’s disclosure

process, a considerable amount of time has been obligated to the disclosure

process procedures. In our efforts to prepare for the audit, the OIG met with

management officials to obtain their opinion on whether the problems cited in the

POGO reports are significant, and if so, what actions has or will be taken to

address the deficiencies cited in the reports. In addition, the IG held an audit

planning staff meeting so audit steps and objectives could be discussed and to

inform staff members about the magnitude of this audit. The IG staff began to

review documents that contained information related to the disclosure process.



       The work completed thus far on the audit has been focused on two primary

areas: 1) documenting and understanding the FEC’s disclosure process; and 2)

analyzing campaign finance data. To document and understand the FEC’s

disclosure process, meetings have been conducted with management and staff

from the three primary offices involved in the FEC disclosure process. The

results of those meetings were summarized, and information incorporated into

documents detailing the FEC’s disclosure process. As the IG office completes the

first phase of the audit, work has now begun on the analyzing the campaign

finance data.



       The second primary area the OIG has devoted time to is downloading

campaign finance data from the FEC’s Internet site and the creation of computer

databases. The information was downloaded so that the data can be analyzed to

determine the extent of disclosure discrepancies, if any. The OIG is planning to


April 1, 2002 – September 30, 2002                                              Page 1 0
analyze the campaign finance data using Microsoft Access, a database program

that will enable the IG office to analyze very large data files that detail the

campaign finance activity for several election cycles. These large data files

contain contributions and other financial information related to Federal elections.



       Analyzing the campaign finance data has been time consuming, in part

because the OIG staff has had to learn Microsoft Access, the computer program

necessary to analyze the data. The OIG continues to work with the data files, and

has sought technical assistance from the FEC’s Data Systems Development

Division (DSDD).



       Although there is still a considerable amount of work to be done, the OIG

has made major progress on the audit, and is determined to have the audit

completed as soon as possible.




April 1, 2002 – September 30, 2002                                                Page 1 1
                              AUDIT FOLLOW-UP

TITLE:	                     Agency Controls Governing the Process for
                            Procurement of Vendor Training Services


ASSIGNMENT #:               OIG – 00-01

RELEASE DATE:               September, 2000
 (audit report)

WEBSITE ADDRESS:            http://www.fec.gov/fecig/training.pdf

PURPOSE:                    The purpose of conducting this follow-up was to

determine whether corrective action had been taken to address the four

recommendations that are currently outstanding. The primary objective of the

original audit was to assess economy, efficiency, and effectiveness of management

controls governing the process for procurement of training services obtained

through outside vendors.



       During the audit, the OIG used various methods of data collection including

staff interviews, document reviews, and the examination of individual training

records. To determine whether or not the FEC has in place management controls

required by OMB directives and Federal regulations, we also performed an

assessment of the system of management controls and operational practices

related to the process for procurement of outside vendor training services.



       Seven total recommendations were made and three recommendations

were closed earlier. However, four recommendations are still outstanding. The

April 1, 2002 – September 30, 2002                                            Page 1 2
outstanding recommendations suggested management develop written policies &

procedures that establish and document effective management controls; design

and implement management controls to ensure each training request is uniformly

processed through the agency; include all cost of training on the request for

training (SF-182), including related expenses estimated and reported on the

travel authorization form; and develop and implement a computer information

system to replace the paper based system of records currently maintained for

requesting and acquiring vendor training services.



       The follow-up work conducted during this reporting period included the

OIG providing a memorandum to the Personnel Director requesting a status

report on the outstanding recommendations. According to the Personnel

Director, procedures addressing the outstanding recommendation have been

drafted but not implemented. Therefore, the recommendations will remain open

until implemented and verified by the OIG.




April 1, 2002 – September 30, 2002                                          Page 1 3
                          INSPECTION REPORT

TITLE:                      Inspection of the Commission’s Subscription /
                            Publication Services


ASSIGNMENT #:               OIG – 02-01


RELEASE DATE:               On Hold


PURPOSE:                    The purpose of conducting the inspection is to: 1) 


assess the adequacy of the level of funds expended for various publications; and 


2) determine whether the current publication budget and expenditures

accurately reflects the usage of these publications and whether or not these

publications meet the needs of the Commission. During the preliminary stages of

the inspection, the OIG inspected various forms used to request publications,

procurement requests, and purchase orders for subscriptions. To accomplish the

main objectives of the inspection, the auditor reviewed prior OIG work related to

acquisitions and performed several detailed analyses of publication usage among

agency divisions.



       The procedures completed thus far on the inspection include developing an

inspection guide using information obtained through interviews with Commission

personnel. After the inspection guide was developed, the OIG held a meeting

with the FEC Administrative Officer. The meeting was held to obtain agency

publication acquisition policies and related information. To obtain information

relating to the development of effective surveys and questionnaires, an Internet

search was conducted by the auditor. A survey was also developed to asses the

April 1, 2002 – September 30, 2002                                          Page 1 4
usage of current publication and publication services included in the FEC budget.

In addition, the auditor also contacted other ECIE regulatory agencies with

similar federal law enforcement responsibilities to obtain their 2001 fiscal year

publication budget amounts. The results of this comparison was summarized and

included in the working papers.



       Although this inspection was introduced during the previous reporting

period and continued into this reporting period, the IG staff is committed to

assisting with the disclosure audit mentioned in the audit section of this report.

Therefore the inspection is in on hold until further notice.




April 1, 2002 – September 30, 2002                                           Page 1 5
                            SPECIAL PROJECT


TITLE:                      Limited Scope Building Security Review


ASSIGNMENT #:               OIG – 02-02


RELEASE DATE:               June, 2002


PURPOSE:                    This limited scope building security review was 


conducted to assess the effectiveness of the building security cameras and 


address the building security issues that arose concerning the theft of a laptop 


computer. The objectives of the review were to: 1) assess the effectiveness of the 


FEC’s closed circuit television (CCTV) security system; and 2) provide 


suggestions to improve overall building security, if warranted.




       The review was initiated for two reasons. First, the Federal government

has placed a greater importance on securing Federal facilities due to domestic and

international acts of terrorism that have occurred in recent years. Second, the

theft of a laptop computer in January, 2002 gave rise to concern over the

adequacy of the FEC’s building security. The theft occurred during the business

day and was perpetrated by an unknown individual while Commission staff

members worked in offices in the direct vicinity of the theft.



       According to GSA, the FEC is responsible for identifying problems with the

internal building security cameras and CCTV system equipment, and alerting

GSA to any problems that may need to be addressed. In order to achieve the

April 1, 2002 – September 30, 2002                                           Page 1 6
stated objectives, the auditor reviewed a variety of documents. The OIG also

reviewed a recording from the FEC’s CCTV system to determine whether or not

the security cameras provide effective surveillance of the FEC building. An array

of meetings were held to further discuss building security issues. Additional

meetings were arranged with the Personnel office to discuss the Commission’s

security badge procedures. Furthermore, officials from other Federal agencies

were contacted to discuss their particular security procedures for securing public

reading rooms.



       The OIG’s evaluation of the CCTV system included a review of both the

security cameras and the policies and procedures for the system. The OIG

concluded that the FEC’s CCTV security system is generally effective in providing

surveillance of the FEC building. Although the report does not include any formal

recommendations, we did find several weaknesses that we feel should be

addressed by management to improve the CCTV security system and the FEC’s

building access control policies. The suggestions contained in the report were

intended to alert management to weaknesses found and to suggest improvement.

The OIG believes management has taken the necessary steps to address many of

the weaknesses reflected in the report.




April 1, 2002 – September 30, 2002                                         Page 1 7
                              INVESTIGATIONS

              Investigative matters pursued by the Office of Inspector General

are generally initiated as a result of allegations received from FEC Commissioners,

managers, employees, or other individuals who contact the OIG directly.

Occasionally the OIG conducts a preliminary inquiry to determine if an

investigation is warranted.



       There were no pending investigations as of the beginning of this reporting

period. However, during the course of this reporting period, the OIG received

three requests for investigations. One investigation has been opened and is in the

process of being completed. The other two cases are being held in abeyance due

to the lack of staff resources. As the open investigation is completed, the inactive

cases will be reviewed for further action.




April 1, 2002 – September 30, 2002                                           Page 1 8
      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


       All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and comments,

when appropriate, on all legislation provided by the PCIE / ECIE Legislative

Committee. In addition, the Inspector General routinely reads all Commission

agenda items and attends Finance Committee meetings.



       •	 On a yearly basis, the President’s Council on Integrity and Efficiency

          and the Executive Council on Integrity and Efficiency assembles a

          progress report which is a compilation of the major fiscal year

          accomplishments of the IG community. During this reporting period,

          the OIG reviewed and provided comments to the draft version of the

          PCIE / ECIE FY 2001 Progress Report to the President.



          The Council asked each PCIE / ECIE Inspector General to provide the

          following information to be included into the report: 1) appropriation

          amounts; 2) FTE’s authorized / actual; 3) audit / inspection or

          evaluation reports issued; 4) investigations closed; 5) complaints

          processed; and 6) congressional testimonies. The Council also

          requested that a description of any reviews conducted or assistance

          provided as a direct result the September 11th terrorist attacks and

          plans to address President Bush’s Management Initiative was also


April 1, 2002 – September 30, 2002                                          Page 1 9
          asked to be incorporated into the report. The final draft of the report

          was reviewed for accuracy. Once finalized, the report will be forwarded

          to the President, the House and Senate Committees, and all PCIE /

          ECIE members.



       •	 The IG’s office also provided comments on the GAO Draft Report,

          Inspectors General: Issues Related to the Consolidation of IG Offices.

          GAO developed a survey which included 28 key elements related to IG

          independence. The survey was developed to obtain the IG’s views on

          how independence, quality of work, and use of resources might be

          affected by: 1) converting DFE IGs from appointment by their agency

          heads to appointment by the President with Senate confirmation; and

          2) consolidating IG offices by moving smaller DFE IG offices into larger

          Presidential IG offices.



          In addition, the survey also requested that the IGs provide information

          about the potential impact of a permanent statutory alternative to the

          PCIE / ECIE and the usefulness of a budget threshold to determine

          where IG offices should be established. A draft version of the report

          was issued to all IGs with a request that a consolidated response be

          coordinated through the PCIE / ECIE Vice Chairs. The IG provided

          comments on several versions of the ECIE response, which was

          provided to the council and subsequently forwarded to GAO.




April 1, 2002 – September 30, 2002                                          Page 2 0
       •	 The IG continues to attend the Executive Council on Integrity and

          Efficiency (ECIE) meetings and remains active on various issues

          impacting the OIG community. During this reporting period, the

          Inspector General served on the ECIE 2002 Awards Review Panel.

          The panel was responsible for reviewing the nominations submitted by

          the ECIE IG community for awards to be given during a joint PCIE /

          ECIE awards ceremony.



       •	 The Special Assistant to the IG continues to monitor legislative

          proposals which could directly or indirectly impact the FEC / OIG.

          During the course of this reporting period, the special assistant

          attended the hearing on HR 4685, the Accountability of Tax Dollars

          Act of 2002, initiated by the Subcommittee on Government Efficiency,

          Financial Management, and Intergovernmental Relations, to listen to

          discussions on a proposal to require the 26 non-CFO IGs to perform

          annual financial statement audits. The reporting requirements apply to

          all agencies but OMB is authorized to exempt those agencies that do not

          meet the $25 million threshold and those that pose low risks for errors.

          The notes taken and information collected was shared with the entire

          IG staff.




April 1, 2002 – September 30, 2002                                            Page 2 1
                       ECIE AND PCIE ACTIVITY

       The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics, the

Office of Special Counsel, the Federal Bureau of Investigation and the Office of

Management and Budget.



       The Inspector General, as a member of the ECIE, maintains active

membership with the Council and its associated activities. The ECIE identifies,

reviews, and discuss issues that are of interest to the IG community. During the

time frame of this reporting period, the Inspector General (or staff) attended the

following training, programs and / or conferences:



       •   ECIE - Monthly Meetings

       •   ECIE - Liaison Meetings

       •	 ECIE / PCIE – Semiannual Reports Coordinators (SARC) Workgroup
          Meeting

       •	 ECIE / PCIE – 2002 Association of Directors of Investigation
          Conference – “911 – The Investigative Community’s Call to Action”

       •   ECIE / PCIE – 2002 Annual Conference – Challenges of a New World

       •   PCIE / ECIE – Ethics Program Enforcement – The IG Role

       •	 PCIE / ECIE – Human Resources Committee – Poor Performance
          Seminar

       •   PCIE / ECIE – Federal Audit Executive Council Meeting


April 1, 2002 – September 30, 2002                                          Page 2 2
       •	 PCIE - Government Performance and Results Act (GPRA) Interest
          Group Roundtable Discussion

       •	 PCIE – Inspectors’ General Information Technology Roundtable
          Discussion

       •	 PCIE – Human Resources Committee: Government Charge Cards
          Training

       •   PCIE – Future Governance and the OIG’s Roundtable Discussion

       •	 The Association of Government Accountants – Transforming the
          Government Enterprise

       •	 Inspector General Auditor Training Institute – Auditing to Improve
          Processes

       •   Institute of Internal Auditor’s – 2002 International Conference

       •	 Institute of Internal Auditor’s – Certified Government Auditing
          Professional Exam

       •	 Intergovernmental Audit Forum – 14th Biennial Forum of Government
          Auditors: Sailing Through Unchartered Waters

       •	 National Institute of Standards and Technology – Computer Security
          Seminar

       •	 National Institute of Standards and Technology – Continuity of
          Operations: Planning & Response in Today’s Environment

       •   National Seminars Group – Business Writing & Grammar Skills

       •	 Office of Management and Budget – Government Information
          Security Reform Act (GISRA)

       •   Federal Election Commission - Administrative Liaison Meetings

       •   Federal Election Commission – New Employee Orientation




April 1, 2002 – September 30, 2002                                           Page 2 3
   IG ACT               REPORTING REQUIREMENTS                                 PAGE


Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)      Review of Legislation---------------------------------------------19

Section 5(a)(1)	     Significant Problems, Abuses, and
                     Deficiencies-----------------------------------------------------None

Section 5(a)(2)	     Recommendations with Respect to
                     Significant Problems, Abuses, and
                     Deficiencies-----------------------------------------------------None

Section 5(a)(3)	     Recommendations Included in Previous
                     Reports on Which Corrective Action Has
                     Not Been Completed---------------------------------------------27

Section 5(a)(4)	     Matters Referred to Prosecutive
                     Authorities-----------------------------------------------------None

Section 5(a)(5)	     Summary of Instances Where Information
                     was Refused---------------------------------------------------None

Section 5(a)(7)      Summary of Significant Reports----------------------------------9

Section 5(a)(8)      Questioned and Unsupported Costs-----------------------------25

Section 5(a)(9)	     Recommendations that Funds be put
                     to Better Use------------------------------------------------------26

Section 5(a)(10)	    Summary of Audit Reports issued before
                     the start of the Reporting Period for which
                     no Management Decision has been made---------------------N/A

Section 5(a)(11)     Significant revised Management Decisions--------------------N/A

Section 5(a)(12)	    Management Decisions with which the
                     Inspector General is in Disagreement------------------------None




April 1, 2002 – September 30, 2002                                                Page 2 4
                                         TABLE I

                       INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS

                                                   DOLLAR VALUE (in thousands )

                                                   QUESTIONED    UNSUPPORTED
                                        NUMBER        COSTS          COSTS



A. For which no management               0              0              [0]
  decision has been made by
  commencement of the reporting
  period


B. Which were issued during the          0              0              [0]
   reporting period

       Sub-Totals (A&B)                  0              0              [0]


C. 	 For which a management              0              0              [0]
    decision was made during
    the reporting period

       (i) Dollar value of disallowed    0              0              [0]
           costs

       (ii) Dollar value of costs        0              0              [0]
           not disallowed


D. For which no management               0              0              [0]
  decision has been made by the
  end of the reporting period


E. Reports for which no management       0              0              [0]
   decision was made within
   six months of issuance




April 1, 2002 – September 30, 2002                                       Page 2 5
                                          TABLE II

           INSPECTOR GENERAL ISSUED REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                              NUMBER   DOLLAR VALUE
                                                        (in thousands )



A.	     For which no management                0              0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during               0              0
        the reporting period

C.	     For which a management                 0              0
        decision was made during
        the reporting period

        (i) 	    dollar value of               0              0
                 recommendations
                 were agreed to by
                 management

                 based on proposed             0              0
                 management action

                 based on proposed             0              0
                 legislative action

        (ii) 	   dollar value of               0              0
                 recommendations
                 that were not agreed
                 to by management

D. 	    For which no management                0              0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                   0              0
        management decision
        was made within six months
        of issuance




April 1, 2002 – September 30, 2002                                   Page 2 6
                                     TABLE III

    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
         OUTSTANDING FOR MORE THAN SIX MONTHS




                                                  Recommendations


                             Report      Issue
 Report Title                Number      Date    Number Closed   Open

Agency Controls              00-01       09/00     7       3         4

Governing the Process

for Procurement of Vendor

Training Services





April 1, 2002 – September 30, 2002                               Page 2 7 

                                                                        FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when
                                                                                                                            Strategy:
                                                             planning and developing products and services;
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures:Determine the
 timeliness and quality of products and                      Performance Measures:An annual audit                           Performance Measures:All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




April 1, 2002 – September 30, 2002                                                                                                                                       Page 28
         CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




       Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
       anonymous message can be left 24 hours a day / 7 days a week.




       Write or visit us - we are located at:	   Federal Election Commission
                                                 Office of Inspector General
                                                 999 E Street, N.W., Suite 940
                                                 Washington, DC 20463

                        Mail is opened by OIG staff members only.




                      You can also contact us by e-mail at: oig@fec.gov.
                      Our Website address: http://www.fec.gov/fecig.htm.


Individuals may be subject to disciplinary or criminal action for knowingly making
a false complaint or providing false information.




April 1, 2002 – September 30, 2002                                        Page 2 9
